Mem
  morandum from
              m the Office of th
                               he Inspector Ge
                                             eneral



September 28, 2011

Kim
  mberly S. Grreene, WT 7B-K

  NAL REPOR
FIN       RT – AUDIT 2010-13660
                     2        0 – DISTRIB UTOR AUDIT OF BVU A
                                                            AUTHORITY
                                                                    Y



Atta
   ached is the
              e subject fina
                           al report for your
                                         y     review and informa
                                                                ation. Your w
                                                                            written comm
                                                                                       ments,
which addresse ed your man nagement de   ecision and a
                                                     actions take          en included in the
                                                                en, have bee
rep
  port. No respponse to this
                           s report is neecessary.

Info
   ormation con
              ntained in th
                          his report ma ay be subjecct to public disclosure. P
                                                                             Please advisse us
of any
   a sensitivee informationn in this repo
                                        ort that you rrecommend be withheld  d.

If you
   y have any  y questions, or wish to discuss
                                       d        our ffindings, plea
                                                                  ase contact me or Richaard C.
Underwood, Diirector, Distrributor Audits
                                        s, at (423) 7
                                                    785-4824. W  We appreciatte the courte
                                                                                         esy
and d cooperatio
               on received from
                           f     your sta
                                        aff during thee audit.



Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Inspections)
ET 3C-K

SLOO:JP
Atta
   achment
cc (Attachmentt):
      Steve Byone, WT 4B   B-K
      Micheal B.
               B Fussell, WT
                           W 9B-K
      Peyton T. Hairston, Jr.,
                            J WT 7B-K  K
      Tom Kilgoore, WT 7B--K
      Richard W.
               W Moore, ET E 4C-K
      Robert A. Morris, WT  T 7C-K
      Emily J. Reynolds,
               R           OCP
                           O     1L-NST
      Stephen B. Summers     s, WT 5C-K
      John M. Thomas
               T        III, MR
                             M 6D-C
      John G. Trawick,
               T        WT  T 3D-K
      Robert B.. Wells, WT 9B-K
      OIG File No. 2010-13  3660
 


        
 


                                 Audit Report
 
Office
      of the Inspector General                              

                                 To the Group President,
                                 Strategy and External  
                                 Relations 
                                                            

 

 

 

 

 
DISTRIBUTOR AUDIT OF
 

BVU AUTHORITY
 

 




 




 

 
 
 

 
Audit Team                                 Audit 2010-13660
Stephanie L. Simmons                     September 28, 2011 
Jessica L. Monroe
Office of the Inspector General                                 Audit Report




ACRONYMS AND ABBREVIATIONS
CSA                        Central Service Association
FY                         Fiscal Year
kW                         Kilowatt
OIG                        Office of the Inspector General
SIC                        Standard Industrial Classification
TVA                        Tennessee Valley Authority




Audit 2010-13660
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 3
   ALLOCATION METHODOLOGY CONSISTENTLY
   APPLIED ACROSS DIVISIONS ...................................................................... 3

   IMPROPERLY CLASSIFIED CUSTOMERS IDENTIFIED ............................... 3

   CERTIFICATIONS NOT OBTAINED FOR CUSTOMERS ON
   MANUFACTURING RATES ............................................................................. 5

   CONTRACT DEMAND IN BILLING SYSTEM DID NOT
   AGREE WITH CONTRACT .............................................................................. 5

   ADJUSTMENTS NOT ADEQUATELY SUPPORTED WITH
   DOCUMENTATION .......................................................................................... 5

RECOMMENDATIONS .................................................................................. 6


APPENDICES
A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED SEPTEMBER 20, 2011, FROM STACY E.POMRENKE TO
   ROBERT E. MARTIN

C. MEMORANDUM DATED SEPTEMBER 27, 2011, FROM JOHN G.
   TRAWICK TO ROBERT E. MARTIN




Audit 2010-13660
                Audit 2010
                         0-13660 – Distribu tor Auditt of BVU A
                                                              Authority
                                                                      y
                                       EXE
                                         ECUTIVE SUMMAR
                                                      RY

Why the OIG Did
              d This Aud
                       dit

  As part of our annual
                 a        audit plan, the OIG (Office off the Inspecttor General) audited the
  electric system of BVU Autthority, a disttributor base ed in Bristol,, Virginia. The objective e of
  the audit was too determine compliance   e with key pro ovisions of tthe power co  ontract betwween
  the Tennessee e Valley Auth hority (TVA) and BVU fo r the audit p  period July 2008 through    h
  Junne 2010. Ke ey contract provisions
                              p           inccluded (1) p roper reportting of electrric sales,
  (2) nondiscrimination in pro oviding powe er, and (3) u
                                                        use of electric revenue fo   or approved
  purrposes. For fiscal year (FY)
                               (     2010, BVU
                                           B     provided d power to aapproximate  ely
  16,500 customers resulting  g in electric sales
                                            s     revenu ue of approxximately $49  9 million. Du uring
  the audit period
                 d, BVU also operated a waterw     divisio
                                                         on, wastewa  ater division, and
     ecommunica
  tele           ations divisio
                              on, which inc cluded broad dband, telephone, cable television, a    and
  managerial and d consulting services. In  n addition, B
                                                        BVU provided   d billing servvices for the
  garrbage collecttion division of the City of
                                            o Bristol, Vi rginia. At Juune 30, 2010  0, BVU had a
  14.3 percent caash ratio beffore considering planned   d FY 2011 ccapital expen   nditures and a
  7.8 percent cassh ratio afterr consideringg planned FY Y 2011 capittal expenditu   ures.

What the OIG Fo
              ound

  BV
   VU generally complies with the contrract provisionns for (1) prooper reportin
                                                                               ng of electricc
     es, (2) nondiscrimination
  sale                       n in providing power, an d (3) use of electric reve
                                                                               enue for
  app
    proved purpo oses. We fo ound BVU’s multiple line
                                                    es of businesss are adequately
  seg
    gregated, and the allocation methodology is reassonable and  d consistently applied.
  Howwever, areass for improve
                             ement were noted. Spe  ecifically, we
                                                                 e found:

     439 custommer accounts   s during the audit period that appearred to be potentially
                 ed based on customer na
      misclassifie                          ame. BVU rreviewed the   ese accountts and determ mined
      seven acco ounts (1.6 peercent) were misclassifie ed as residenntial. Additioonally,
      one custommer account was w misclas  ssified within
                                                        n the GSA scchedule. Th   he customer was
      misclassifie
                 ed because of o a rounding g issue idenntified in BVU
                                                                     U’s billing ag
                                                                                  gency’s syste
                                                                                              em.
      The custommer classifica ations have been correccted and the monetary efffect on BVU   U and
      TVA was no  ot significant.
     Required cu                       ere not on fi le for the tw
                ustomer certifications we                         wo customerss receiving
      power unde           cturing rate. BVU obtain
                er a manufac                        ned both cerrtifications in
                                                                              n July 2011.
     Contract de emand was either
                                e   not enntered into thhe billing sysstem or incoorrectly enterred
      into the billiing system for
                               f four of eig
                                           ght custome ers (50 perce ent) with conntracts. BVU U has
      corrected th he contract demand
                               d       in th
                                           he billing sysstem for all ffour customeers.
     Documenta ation was not present forr three of sevventeen cusstomer adjusstments revie
                                                                                          ewed
      (17.7 perce
                ent).




                                                                                                 Page i
               Audit 2010
                        0-13660 – Distribu tor Auditt of BVU A
                                                             Authority
                                                                     y
                                    EXE
                                      ECUTIVE SUMMAR
                                                   RY

What the
     t OIG Re
            ecommend
                   ds

  Wee recommend   d the Group President, Strategy
                                          S        and
                                                     d External RRelations, wo ork with
  BVVU to resolvee the two speecified recom
                                          mmendation ns listed with
                                                                  hin this reporrt. The
  rec
    commendatio  ons generally relate to (1
                                          1) implemennting controlss to ensure ccustomers a
                                                                                          are
  clas
     ssified corre
                 ectly and (2) maintaining appropriate
                                                     e documenta  ation.

Manag
    gement’s Comments
             C      s

  BVU and TVA managemen
                 m         nt agreed witth our recom
                                                   mmendationss and have ttaken actions to
  add
    dress the rec
                commendations. See Appendix B fo   or BVU’s com
                                                              mplete response and
  App
    pendix C forr TVA’s comp
                           plete respon
                                      nse.

Audito
     or’s Respo
              onse

  The
    e OIG concu
              urs with actio
                           ons taken by         TVA to correct the identiffied issues.
                                      y BVU and T




                                                                                          P
                                                                                          Page ii
Office of the Inspector General                                                                   Audit Report


BACKGROUND
BVU Authority1 is a distributor for Tennessee Valley Authority (TVA) power based
in Bristol, Virginia, with revenues from electric sales of approximately $49 million
in fiscal year (FY) 2010. Prior to April 1, 2011,2 TVA relied on distributors to self-
report customer usage and subsequently the amount owed to TVA (Schedule 1).
Customers are generally classified as residential, commercial, manufacturing,
and lighting. Within these classes are various rate classifications based on the
customer type and usage. Table 1 shows the customer mix for BVU as of June
2010.

                             BVU’s Customer Mix as of June 2010
                                               Number of                                     Kilowatt
        Customer Classification                                       Revenue
                                               Customers                                    Hours Sold
    Residential                                        13,860            $ 20,258,240          213,303,624

    General Power – 50 Kilowatt (kW)
                                                        2,201               4,254,412           39,507,926
    and Under (Commercial)
    General Power – Over 50 kW
                                                          325              22,939,989          296,710,223
    (Commercial or Manufacturing)

    Street and Athletic                                     26                752,278             2,994,094

    Outdoor Lighting                                      112                 389,081             3,097,075

    Unbilled Revenue                                                          620,492

     Total                                             16,524            $ 49,214,492          555,612,942

                                                                                                      Table 1

TVA’s distributors are required to establish control processes over customer
setup, rate application, and measurement of usage to ensure accurate and
complete reporting to TVA. BVU, like many other distributors, outsources its
billing and invoice processing to a third-party processor, Central Service
Association (CSA). BVU uses CSA systems to establish and set up new
customers, input customer meter information, perform the monthly billing process,
and maintain customer account information. Additionally, CSA provides BVU with
management reporting capabilities (e.g., exception reports) designed to ensure
the accuracy and completeness of the customer invoice and Schedule 1 provided
to TVA. All other accounting and finance responsibilities are handled by BVU,
which has a Board of Directors who provide oversight and a President and
management team who manage the daily activities.


1
     Prior to July 2010, BVU Authority was referred to as Bristol Virginia Utilities.
2
     On April 1, 2011, TVA moved from distributors self-reporting customer usage to billing distributors based
     on actual energy and demand takings using meter readings from the wholesale delivery points.
Audit 2010-13660                                                                                       Page 1
Office of the Inspector General                                                                    Audit Report


During the audit period, BVU also operated a water division, wastewater division,
and telecommunications division, which included broadband, telephone, cable
television, and managerial and consulting services. In addition, BVU provided
billing services for the garbage collection division of the City of Bristol, Virginia.

As of June 30, 2010, BVU had a 14.3 percent cash ratio before considering
planned FY 2011 capital expenditures and a 7.8 percent cash ratio after
considering planned FY 2011 capital expenditures, which is within TVA’s
established guidelines for an adequate cash ratio of 5 to 8 percent.3 Specifically,
BVU had approximately $6.4 million in cash and cash equivalents and $2.9 million
in planned capital projects for FY 2011 (see Table 2 below).

            BVU’s Cash Accounts Compared to Planned Capital Expenditures
                                    Cash and Cash                                        Reserve After
                                                            FY 2011 Planned
                                    Equivalents at                                      Planned Capital
                                                           Capital Expenditures
                                    June 30, 2010                                        Expenditures

    Amount                            $6,442,757                 $2,923,870                $3,518,887

    Cash Ratio Percentage               14.34%                                                7.83%

                                                                                                       Table 2

According to TVA records, as of our audit period, BVU was approved for one rate
increase in 2008. Per BVU personnel, this increase was required by TVA when
the distributor returned to TVA’s system. Table 3 below shows the rate increase
received by BVU and the cash position and cash ratio at June 30 prior to the
effective date of the rate change.

                    BVU’s Rate Increases, Cash Position, and Cash Ratio
        Cash on Hand                  Cash and Cash                           Rate Increase5
       Equivalent to an                Equivalents4              Change in
        8% Cash Ratio                 and Cash Ratio                              Percent Effective Date
                                                                 Revenue
                                         -$716,459
          $3,215,851                                              $662,000         1.37%       06/01/2008
                                        (CR=-1.78%)
                                                                                                       Table 3




3
     TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
     calculated as follows:                           Cash + Cash Equivalents________________________
                               Total Variable Expenses (Operations and Maintenance + Purchased Power)
4
     The cash and cash equivalents and cash ratio were computed based on information from BVU’s annual
     report as of June 30 prior to the effective date of the rate increase.
5
     These are the rate increases enacted by the distributor. These increases do not include any rate
     increases or decreases made by TVA, including Fuel Cost Adjustments, which were passed through by
     the distributor to the customer.
Audit 2010-13660                                                                                        Page 2
Office of the Inspector General                                                              Audit Report


Discussions with BVU management indicated its operating philosophy is
generally conservative. BVU prefers to use cash to pay for capital expenditures
and is generally debt adverse.

FINDINGS
BVU generally complies with the contract provisions for (1) proper reporting of
electric sales, (2) nondiscrimination in providing power, and (3) use of electric
revenue for approved purposes. We found BVU’s multiple lines of business are
adequately segregated, and the allocation methodology is reasonable and
consistently applied. However, we found improvements were needed in
(1) classifying customers, (2) obtaining manufacturing certifications from
customers, (3) entering contract demand in the billing system, and
(4) documenting rationale for adjustments.

ALLOCATION METHODOLOGY CONSISTENTLY APPLIED
ACROSS DIVISIONS
We found BVU has adequately segregated their multiple lines of business and
does not appear to be using electric revenue for nonelectric purposes, other than
those allowed under the contract. Additionally, BVU appears to be consistently
allocating shared costs according to the TVA approved Cost Allocation Manual.
The Cost Allocation Manual clearly outlines BVU’s allocation methodology for
allocating shared costs across divisions based on direct costs and/or allocation
percentages. Our review of monthly allocations, rental calculations, debt
allocations, sample journal entries, and sample expenses found BVU’s allocation
methodology to be reasonable and consistently applied.

IMPROPERLY CLASSIFIED CUSTOMERS IDENTIFIED
We identified customer classification issues that could impact the (1) proper
reporting of electric sales and/or (2) ability to ensure nondiscrimination in
providing power to members of the same rate class.6 The monetary effect of
these misclassifications on BVU and TVA was not significant. However,
correcting customer classification issues is important to ensure all customers are
placed in the correct rate classification and charged the same rate as other
customers with similar circumstances.




6
    Section 5 Resale Rates subsection (a) of the power contract between TVA and BVU dated September 29,
    2006, states “…power purchased hereunder shall be sold and distributed to the ultimate consumer without
    discrimination among consumers of the same class and that no discriminatory rate, rebate, or other
    special concession will be made or given to any consumer, directly or indirectly.”
Audit 2010-13660                                                                                   Page 3
Office of the Inspector General                                                                      Audit Report


We noted seven customer accounts were misclassified under the Residential
Rate – Schedule RS7 that should have been classified under the General Power
Rate – Schedule GSA.8 The GSA schedule is divided into three parts—Part 1,
Part 2, and Part 3—based on electric usage and demand. We identified
439 customer accounts that appeared to be improperly classified based on
customer name. At our request, BVU reviewed these customer accounts and
determined 7 accounts (1.6 percent) were incorrectly classified. These accounts
were for businesses, churches, and a shop. According to BVU personnel, the
7 customer accounts have been reclassified from residential to the appropriate
part of the GSA schedule.

Additionally, we noted one customer account was misclassified within the
GSA schedule for one month during our audit period. According to the GSA
schedule, a customer should be classified as GSA Part 2 if (1) usage is over
15,000 kilowatt hours, (2) metered demand exceeds 50 kilowatts (kW), or
(3) contract demand is greater than 50 kW. When a customer is moved to GSA
Part 2, the customer must remain at that classification for 12 months after the
usage meets the Part 2 criteria. The customer account was classified as GSA
Part 1 and had metered demand over 50.01 kW; therefore, the customer should
have been classified as GSA Part 2 for the next 12 months. However, the CSA
system used by BVU did not automatically change customers from GSA Part 1 to
GSA Part 2 based on metered demand until after demand exceeds 50.499 kW
rather than the 50 kW as stated under Part 2 of the GSA schedule. This customer
account was automatically upgraded the next month to GSA Part 2 by the billing
system when the demand reached 52.8 kW. In response to previous distributor
audit reports, CSA modified the billing system to address this issue.




7
    Under the Residential Rate – Schedule RS, customers are classified based on the following requirement:
    “This rate shall apply only to electric service to a single-family dwelling (including its appurtenances if
    served through the same meter), where the major use of electricity is for domestic purposes such as
    lighting, household appliances, and the personal comfort and convenience of those residing herein.”
8
    Under the General Power Rate – Schedule GSA, customers are classified based on the following
    requirements:
     GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
        highest billing demand during the latest 12-month period is not more than 50 kilowatts (kW) and (b)
        the customer’s monthly energy takings for any month during such period do not exceed 15,000
        kilowatt hours.
     GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
        highest billing demand during the latest 12-month period is greater than 50 kW but not more than
        1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
        month during such period exceed 15,000 kilowatt hours.
     GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
        billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2010-13660                                                                                           Page 4
Office of the Inspector General                                                                      Audit Report


CERTIFICATIONS NOT OBTAINED FOR CUSTOMERS ON
MANUFACTURING RATES

A customer certification was not on file for the two customers receiving power
under the Manufacturing Service Rate – Schedule MSB.9 According to the MSB
rate schedule, prior to initially taking any service under this schedule a customer
shall certify to BVU and TVA that the major use of electricity is for activities that
are classified with a 2-digit Standard Industrial Classification (SIC) Code between
20 and 39, inclusive. BVU personnel subsequently obtained the customers’ SIC
code certifications in July 2011 showing the customers met the SIC code
requirements of the manufacturing schedule. Certifying and documenting a
customer meets the SIC code requirement is important to correctly place
customers within rate classifications.

CONTRACT DEMAND IN BILLING SYSTEM DID NOT AGREE
WITH CONTRACT
We found four of the eight customers with contracts (50 percent) either did not
have contract demand entered into the billing system or had incorrect contract
demand entered into the billing system at some time during our audit period.
BVU did not have a procedure in place to ensure contract demand was correctly
entered into the billing system when customer contracts were obtained. Contract
demand should be entered into the billing system at the agreed-upon contract
amount to ensure proper calculation of the customer’s bill for the monthly
demand charge and calculating the customer's minimum bill. BVU has corrected
the contract demand in the billing system for all four customers. Additionally,
BVU management informed us they instituted a new policy for verifying contract
demand in response to this finding as of August 8, 2011. The Office of the
Inspector General (OIG) agrees with the actions taken.

ADJUSTMENTS NOT ADEQUATELY SUPPORTED WITH
DOCUMENTATION
BVU could strengthen internal controls regarding customer account adjustments.
Specifically, we found three out of seventeen adjustments we reviewed
(17.7 percent) did not have notes documenting the reason for the adjustment.
According to BVU personnel, the informal process is to enter the reason for
adjustments into the notes field in the billing system when making an adjustment.
However, this process has not been formalized. Having a formal, written process
including documentation and reviewing requirements for customer adjustments
would help ensure adjustments are applied consistently and accurately. BVU
management informed us they instituted a new policy for documenting customer

9
    Under the Manufacturing Service Rate – Schedule MSB, customers are classified as MSB where (a) the
    customer’s currently effective contract demand is greater than 5,000 kW but not more than 15,000 kW,
    and (b) the major use of electricity is for activities conducted at the delivery point serving that customer,
    which are classified with a 2-digit Standard Industrial Classification Code between 20 and 39, inclusive.
Audit 2010-13660                                                                                          Page 5
Office of the Inspector General                                            Audit Report


adjustments in response to this finding as of August 8, 2011. The OIG agrees
with the actions taken.

RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations, work with
BVU to improve compliance with the contract provisions and/or strengthen
internal controls. Specifically, BVU should:

1. Implement a process to assist in identifying accounts that need to be
   reclassified and prevent classification issues from recurring.

    BVU’s Response – BVU agrees with the recommendation. On September 1,
    2011, BVU implemented a policy to assist in identifying accounts that need to
    be reclassified and prevent classification issues from recurring. See
    Appendix B for BVU’s complete response.

    TVA Management’s Comments – TVA management agrees with the
    recommendation. Distributor has fixed the misclassifications identified by the
    OIG and has implemented a policy to assist in identifying accounts that need
    to be reclassified and prevent classification issues from recurring. See
    Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG concurs with actions taken.

2. Implement a process to ensure certifications are obtained from customers
   receiving power under a manufacturing rate.

    BVU’s Response – BVU agrees with the recommendation. On September 1,
    2011, BVU implemented a process to ensure certifications are obtained from
    customer receiving power under a manufacturing rate. See Appendix B for
    BVU’s complete response.

    TVA Management’s Comments – TVA management agrees with the
    recommendation. The Power Contract requires the distributor to maintain the
    required certifications in order to sell power under the manufacturing
    classification. Distributor has implemented a process to ensure certifications
    are obtained from customers receiving power under a manufacturing rate.
    See Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG concurs with actions taken.




Audit 2010-13660                                                                Page 6
                                                                        APPENDIX A
                                                                         Page 1 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between TVA
and BVU including:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing electricity to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Tax equivalent payments
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained electronic billing data for the audit period. To validate the reliability
    of the billing data, we compared the data to the information reported to TVA
    on the Schedule 1. No significant differences were noted; therefore, the data
    was deemed reliable.
   Performed queries on data to identify classification, metering, and contract
    compliance issues. Reviewed results of the queries and, using nonstatistical
    sampling, selected accounts for further analysis and follow-up to determine
    whether misclassification, metering issues, or noncompliance with contract
    requirements occurred. Since nonstatistical sampling was used, projection of
    the results was not appropriate.
   Limited our work on internal controls to those control deficiencies identified as
    contributing to noted instances of noncompliance with the power contract
    and/or the TVA Act.
   Determined through inquiry and review of documentation whether BVU had
    any nonelectric, system-related business interests supported by electric
    system funds.
   Obtained disbursements listing for the audit period. Reviewed and analyzed
    disbursements to identify instances where electric system funds may have
    been used for purposes not allowed under the TVA power contract. Used
    nonstatistical sampling to select questionable disbursements for further
    analysis and follow-up. Since nonstatistical sampling was used, projection of
    the results was not appropriate.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
                                                                       APPENDIX A
                                                                        Page 2 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
When evaluating results of our audit work we will use both qualitative and
quantitative factors when considering the significance of an item. For the
purposes of this audit the quantitative factor(s) to be considered in determining
an item’s significance are:

   If the dollar value of an error(s) and/or item of noncompliance with the
    contract exceeds 3 percent of the distributor’s average annual power cost
    during the audit period, or $1,196,172, it would be considered significant.
   In respect to the distributor’s unapproved use of revenues, we consider the
    following to be significant.
     A negative cash ratio results after subtracting the distributor’s funds at risk
        during the audit period (loans extended or debts guaranteed with electric
        revenues) from the cash and cash equivalents balance at the end of the
        audit period.
     Amounts expended by the electric department on behalf of a nonelectric
        department/operating unit during the audit period (without payback from
        the nonelectric department) exceed the rate increase amounts approved
        by TVA during the audit period.

The scope of the audit was for the period July 2008 through June 2010.
Fieldwork was conducted June through August 2011 and included visiting the
distributor’s corporate office in Bristol, Virginia. This performance audit was
conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.
APPENDDIX B
 Page 1 of 2
APPENDDIX B
 Page 2 of 2
APPENDIX C
 Page 1 of 1
